WAIVER

Supreme Court of the United States
No. 19-240

Vicky Lynn Ballard

Noah Thomas Ballard v.
(Respondent)

(Petitioner)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
}€ Please enter my appearance as Counsel of Record for all respondents.

a There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following yespondent(s):

 

 

a Iam amember of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

 

 

Date:

(Type or print) Name_Abby R. Rubenfeld
O Mr. & Ms. O Mrs. UO Miss

Firm__Rubenfeld Law Office, PC

Address_202 South Eleventh Street

City & State_Nashville, Tennessee Zip 37211

Phone _ (615)-386-9077

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Coz Noah Thomas Ballard, Pro se
636 Weatherbeaten Place
Hermitage, Tennessee 37076
ballard.noah@gmail.com

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
